                              FEDERAL MARITIME COMMISSION
                                   Washington, DC 20573




Office of Inspector General

                                     System Review Report

March 14, 2014

Christopher W. Dentel, Inspector General
Consumer Product Safety Commission
Office of Inspector General
4330 East West Highway
Bethesda, MD 20814-4408

Dear Mr. Dentel,

We have reviewed the system of quality control for the audit organization of the Consumer
Product Safety Commission (CPSC) Office of Inspector General (OIG) in effect for the year
ended September 30, 2013. A system of quality control encompasses CPSC OIG’s
organizational structure and the policies adopted and procedures established to provide it with
reasonable assurance of conforming with Government Auditing Standards. The elements of
quality control are described in Government Auditing Standards. CPSC OIG is responsible for
designing a system of quality control and complying with it to provide CPSC OIG with
reasonable assurance of performing and reporting in conformity with applicable professional
standards in all material respects. Our responsibility is to express an opinion on the design of the
system of quality control and CPSC OIG’s compliance therewith based on our review.

Our review was conducted in accordance with Government Auditing Standards and guidelines
established by the Council of the Inspectors General on Integrity and Efficiency (CIGIE).
During our review, we interviewed CPSC OIG personnel and obtained an understanding of the
nature of the CPSC OIG audit organization, and the design of the CPSC OIG’s system of quality
control sufficient to assess the risks implicit in its audit function. Based on our assessments, we
selected engagements and administrative files to test for conformity with professional standards
and compliance with the CPSC OIG’s system of quality control. The engagements selected
represented a reasonable cross-section of the CPSC OIG’s audit organization, with emphasis on
higher-risk engagements. Prior to concluding the review, we reassessed the adequacy of the
scope of the peer review procedures and met with CPSC OIG management to discuss the results
of our review. We believe that the procedures we performed provide a reasonable basis for our
opinion.

In performing our review, we obtained an understanding of the system of quality control for the
CPSC OIG’s audit organization. In addition, we tested compliance with the CPSC OIG’s quality
control policies and procedures to the extent we considered appropriate. These tests covered the
application of the CPSC OIG’s policies and procedures on selected engagements. Our review
was baseed on selected tests; thereefore, it wou
                                               uld not necesssarily detectt all weakneesses in the
system of quality conntrol or all in
                                   nstances of noncomplian
                                               n           nce with it.

There aree inherent lim
                      mitations in the effectiveeness of any system of qquality controol, and thereefore
noncomp pliance with the system ofo quality co ontrol may occcur and nott be detectedd. Projectionn of
any evaluuation of a sy
                      ystem of quaality control to future peeriods is subjject to the risk that the
system of quality con ntrol may beecome inadeq  quate becausse of changees in conditioons, or becauuse
the degreee of compliaance with th
                                 he policies orr proceduress may deterioorate.

Enclosurre 1 to this reeport identifiies the engag
                                                 gements thatt we revieweed and your response to the
draft repo
         ort is includeed as Enclossure 2.

In our op
        pinion, the syystem of quaality control for the auditt organizatioon of CPSC OIG in effecct for
the year ended
         e      September 30, 2013, has been    n suitably deesigned and ccomplied wiith to providde
CPSC OIIG with reassonable assurrance of perfforming andd reporting inn conformityy with appliccable
professio
        onal standard ds in all mateerial respectss. Federal aaudit organizzations can reeceive a rating of
pass, passs with deficiiencies, or fa
                                    ail. CPSC OIG
                                                O has receeived a peer rreview ratingg of pass.

In additio
         on to reviewwing its system of quality y control to eensure adherrence with G
                                                                                     Government
Auditing Standards, we w applied certain
                                   c        limiteed procedurees in accordaance with guuidance
established by the CIIGIE related to CPSC OIIG’s monitorring of engaagements perrformed by
Independ dent Public Accountants
                      A              (IPA) underr contract whhere the IPAA served as thhe principal
auditor. It should be noted that monitoring
                                   m            of
                                                o engagemennts performeed by IPAs iis not an auddit
and thereefore is not subject
                      s       to thee requiremen nts of Goverrnment Auditting Standarrds. The purrpose
of our lim
         mited proced dures was to determine whether
                                                w         CPS
                                                            SC OIG had controls to eensure IPAs
performeed contracted d work in acccordance wiith professionnal standardds. Howeverr, our objectiive
was not to
         t express an n opinion and accordinglly, we do noot express ann opinion, onn CPSC OIG    G’s
monitorinng of work performed
                      p           byy IPAs.

Sincerely
        y,




Jon Hatfiield
Interim Inspector General

Enclosurres




                                                   -2-
                       SCOPE AND METHODOLOGY (Enclosure 1)

Scope and Methodology

We tested compliance with the CPSC OIG audit organization’s system of quality control to the
extent we considered appropriate. These tests included a review of the two audit reports issued
during the period October 1, 2012, through September 30, 2013. We also reviewed the internal
quality control review performed by CPSC OIG.

In addition, we reviewed the CPSC OIG’s monitoring of engagements performed by IPAs where
the IPA served as the principal auditor during the period October 1, 2012, through September 30,
2013. During this period, CPSC OIG contracted for a Performance Audit of Compliance with
Improper Payment Elimination and Recovery Act, and Follow-Up Audit of the CPSC’s
Information Technology Investment Maturity. These engagements were to be performed in
accordance with Government Auditing Standards.

We visited the CPSC OIG offices located in Bethesda, Maryland for the peer review.

Reviewed Engagements Performed by CPSC OIG

Report Date           Report Title
09/27/2013            Audit of the Travel Card Program
11/16/2012            Independent Audit of CPSC’s FY 2012 Financial Statements


Reviewed Monitoring Files of CPSC OIG for Contracted Engagements

Report Date           Report Title
03/15/2013            Performance Audit of Compliance with Improper Payment
                      Elimination and Recovery Act




                                              -3-
      Enclosure 2




-4-
